      U.S. DEPARTMENT OF COMMERCE
                Office of Inspector General




                      U.S. CENSUS BUREAU


                   Enumerating Group Quarters
                   Continues to Pose Challenges
Con

                                    Final Inspection Report
                             No. IPE-18046/September 2006




                           PUBLIC RELEASE
               Office of Inspections and Program Evaluations
U.S. Department of Commerce                                                                             Final Report IPE-18046
Office of Inspector General                                                                                     September 2006

                                                            CONTENTS
Summary .................................................................................................................................... i
Background ............................................................................................................................... 1
Objectives, Scope, and Methodology ....................................................................................... 4
Observations and Conclusions.................................................................................................. 5
I.         Previously Recommended Solutions to Many Census 2000 Group Quarters
           Problems Were Tested in the 2006 Census Test........................................................... 5
II.        Issues Surfaced in Our Review of the Group Quarters Validation Documentation
           and Require Resolution................................................................................................. 8
           A.         Non-traditional student housing did not match Census group quarters
                      definitions ......................................................................................................... 8
           B.         Treatment of large apartment complexes needs to be revisited...................... 10
III.       The Final Enumeration List Missed Some Group Quarters and Contained
           Duplicates ................................................................................................................... 13
           A.         Additional research may improve the accuracy and completeness of the
                      group quarters enumeration list ...................................................................... 13
           B.         Duplication remains problematic.................................................................... 15
IV.        New Methods for Improving Student Enumeration Need Consideration and
           Evaluation ................................................................................................................... 19
           A.         Enumerating fraternities and sororities was difficult...................................... 19
           B.         Use of the Internet for student populations warrants exploration................... 20
V.         Some Additional Group Quarters Processes and Procedures Warrant
           Management Attention................................................................................................ 22
           A.         Double scanning all ICRs for check-in/out appears unnecessary................... 22
           B.         Sections of the ICR and other forms used for group quarters enumeration
                      were complicated and confusing..................................................................... 25
Summary of Recommendations.............................................................................................. 29
Appendices.............................................................................................................................. 31
      A. 2006 Census Test Group Quarters Questionnaire (Individual Census Report)
           B. 2006 Census Test Group Quarters Definitions
           C. Census 2000 Evaluations of Group Quarters Operations
           D. Census’s Response
U.S. Department of Commerce                                            Final Report IPE-18046
Office of Inspector General                                                    September 2006

                                         SUMMARY

The decennial census is a constitutionally mandated population count conducted for the
purpose of reapportioning seats in the U.S. House of Representatives. Decennial census data
is also used for a myriad of other purposes, such as allocating federal funds to state and local
governments and providing official, uniform information on the nation’s social,
demographic, and economic trends. Because of its importance, the decennial census should
be as accurate and complete as possible.

Leading up to the 2010 decennial census, the Census Bureau is conducting a program of
early planning, development, and testing culminating with a 2008 dress rehearsal of the
actual 2010 census. As such, the bureau is currently conducting a test (called the 2006
Census Test) in two locations—a portion of Travis County, Texas, that includes parts of the
city of Austin and its suburbs, and the Cheyenne River Reservation and Off-Reservation
Trust Land in South Dakota. The bureau chose these two sites because their demographics
and geography support test objectives.

The vast majority of U.S. residents live in residential housing units such as single-family
houses, apartments, and mobile homes. However, the 2000 decennial census enumerated
over seven million people living in group situations such as college dormitories, nursing
homes, prisons, and group homes, collectively known as “group quarters” (GQs). Since
1970, the U.S. Census Bureau has conducted a separate operation to enumerate the group
quarters population. The Travis County, Texas, site is ideal for testing the group quarters
operation because it includes four universities and colleges, a state prison, and other group
living facilities.

There are several operations associated with enumerating people living in group quarters.
One of the first, and most critical tasks, is to develop a comprehensive list of existing group
quarters, and then once all are identified, to validate them. During the validation operation,
Census employees visit every address on the list to determine whether the address is actually
a group quarters and, if so, what type (See Appendix B). After validation, a final list is
produced for enumeration. Residential housing units receive a Census questionnaire in the
mail. But enumerators visit each group quarters by appointment to either complete the
Individual Census Report (ICR) or drop it off to be filled out by residents or the group
quarters administrator (See Appendix A). Once an ICR for each resident has been completed
and reviewed, the forms are taken to the local census office to be shipped for processing at
the National Processing Center in Jeffersonville, Indiana. (See Table 1 on page 3 for a
summary of the 2006 Census Test operations that impact group quarters enumeration.)

We conducted this review of the group quarters operations to determine (1) whether the
recommendations made by internal and external evaluations following the 2000 Census and
2004 test for the 2010 decennial were addressed, (2) the existence of new or continuing
problems in the operation, and (3) whether all existing group quarters in the test area had
been identified and enumerated. We conducted our review from March through July 2006 at
bureau headquarters in Suitland, Maryland, and the Travis County, Texas test site. We




                                              i
U.S. Department of Commerce                                           Final Report IPE-18046
Office of Inspector General                                                   September 2006

observed group quarters enumeration during the second week of the operation and conducted
some additional on-site follow-up after the operation ended.

We concluded that although the bureau is clearly testing new methods to better enumerate the
group quarters population, it continues to face a number of challenges. Our specific findings
are as follows:

Previously Recommended Solutions to Many Census 2000 Group Quarters Problems
Were Tested in the 2006 Census Test. After the 2000 decennial census and the 2004
census test, a number of operational assessments and evaluations were issued by the Census
Bureau, the National Research Council of the National Academy of Sciences, the
Government Accountability Office, and the Office of Inspector General. We reviewed the
reports and compiled a list of group quarters recommendations discussed in two or more
reports. We sought to determine whether the bureau addressed those recommendations in the
2006 Census Test and found that in many instances it did, including trying methods of
improving the group quarters list and reducing list duplication, revising group quarters
definitions and the ICR questionnaire, better tracking of the ICR questionnaire, and counting
people where they sleep (e.g., dorms) rather than where administrative records are kept (e.g.,
University of Texas). (See page 5.)

Issues Surfaced in Our Review of the Group Quarters Validation Documentation and
Require Resolution. During the 2006 Census Test, the group quarters list building activities
identified 1,778 addresses to be validated as a group quarters, housing unit, or non-residential
address. If this validation determined the address was a group quarters, the group quarters
type was ascertained. Although we did not observe the validation operation, we spoke with
the supervisors and enumerators who conducted it, and we reviewed more than 1,500
validation questionnaires. In our review of the questionnaires, we discovered that some
residents or managers of non-traditional student housing, specifically private dorms and
student cooperative housing, self-identified themselves as a group quarters facility even
though they did not fit into any of Census’s group quarters definitions. As a result, the
number of facilities and population counts for that type of group quarters may be inaccurate.
If these non-traditional student housing units were defined as private residences that received
housing unit questionnaires, there was an increased likelihood that students who did not
respond had moved out of their residence prior to the non-response follow-up operation.
When this occurred, enumerators relied on records kept in administrative offices, which often
lacked Hispanic origin and race information. Moreover, more time and effort may have been
spent to enumerate these facilities than if the building had originally been defined as a group
quarters.

In addition, we found that 42 percent of the 1,778 addresses were associated with large
apartment complexes. During address canvassing, individual apartments in large complexes
were erroneously identified as potential group quarters. This caused inefficiencies in the
group quarters validation and the non-response follow-up (NRFU) operations, including
(1) consuming an inordinate amount of lister and enumerator time, (2) wasting resources
(such as other living quarters validation questionnaires), and (3) antagonizing apartment
managers by having several enumerators visit them multiple times (the managers are relied



                                             ii
U.S. Department of Commerce                                             Final Report IPE-18046
Office of Inspector General                                                     September 2006

on to obtain resident information during NRFU). The processes used to enumerate large
apartment complexes appear unwieldy, yet Census has not identified or altered its
enumeration procedures for these apartment facilities. (See page 8.)

The Final Enumeration List Missed Some Group Quarters and Contained Duplicates.
Four sources were used to develop the list used in the group quarters validation operation.
The validation operation refined the list into a final group quarters enumeration list.
However, by conducting a limited Internet search and speaking with group home
administrators, a practice that was recommended following the 2000 Census but was not a
part of the 2006 Census Test, we found an additional 15 group quarters that had not been
included on the list. We also found three facilities that appeared twice on the list and six
addresses on both the group quarters enumeration and housing unit lists. Duplicates can
result in an inaccurate count of the population because people may be counted twice.

Census’s oversight and evaluation methods appear lacking because they do not adequately
capture the problems associated with the group quarters validation and enumeration lists.
Census can, just as we did, access online tools (e.g., state licensing websites) to identify
additional group quarters facilities and increase the overall completeness of the lists.
 (See page 13.)

New Methods for Improving Student Enumeration Need Consideration. The Travis
county site includes four large universities and colleges, making it an ideal test site for the
student population. Students proved a particularly challenging population for enumerators.
Based on our observations, we concluded that one of the most difficult groups on
college/university campuses to enumerate is students living in fraternities and sororities.
Because few questionnaires were returned, administrative records were used to enumerate
dorms, which generally lacked Hispanic origin and race information. Additional measures,
such as using the internet, are needed to more accurately count students living in
college/university group quarters. (See page 19.)

Some Additional Group Quarters Processes and Procedures Warrant Management
Attention. We found some group quarters enumeration processes and procedures that could
be improved in preparation for the 2008 dress rehearsal and the 2010 decennial. For example,
because some ICRs were unaccounted for or could not be associated with a particular group
quarters in 2000, the bureau implemented a procedure to scan all ICRs when they arrived at
the local Census office and then scan them again when they are shipped out to the National
Processing Center. In the event that an ICR form becomes separated from the batch, this new
procedure will be able to associate the ICR to the appropriate group quarters. However,
scanning all ICRs twice will increase the document scanning workload by at least 15 million
ICRs over the 2000 local Census office workload and may not be necessary if the forms and
batch envelopes are unopened from the time they were scanned in to the time they are
shipped. (See page 22.)

A summary of our recommendations can be found on page 29.




                                             iii
U.S. Department of Commerce                                           Final Report IPE-18046
Office of Inspector General                                                   September 2006




Census Response and OIG Comments

In its response to our draft report, the Census Bureau concurred with some of our findings
and recommendations, but took issue with others. In particular, it believes that its quality
assurance methods to identify, quantify, and rectify problems (recommendation 1) are
sufficient. The bureau also disagrees with exploring the use of the Internet as a possible
response option for campus student enumeration (recommendation 8) although it agreed with
the recommendation that the bureau use the Internet and other resources to improve both the
completeness and accuracy of its group quarters list (recommendation 5(b)). Based on the
results of Census 2000 and three other tests of the Internet response option, the bureau has
concluded in a memo that the low usage, increased security risk of census data, and high
implementation costs were sufficient to eliminate the Internet option. However, unlike the
Internet response option used in Census 2000 and the other tests, we suggested that the
bureau explore using the Internet to contact a small, specific population (students) via e-mail,
and provide them the option to respond electronically. Given that the aforementioned memo
is the only documentation we have received regarding the Internet response option, we would
like copies of Internet option evaluations.

Census also did not agree with our recommendation to eliminate the check-out scan of ICRs
not selected for reinterview (recommendation 9). In addition, the bureau only partially agreed
to review and revise, as necessary, the methods used to evaluate the accuracy of the group
quarters lists, and to reduce duplication (recommendations 4 and 6). We request that Census
provide us with additional support and reasoning for the above recommendations that lacked
full or partial concurrence. In addition, the bureau’s action plan should describe the actions
you have taken or plan to take to implement the agreed upon recommendations, or to
otherwise address the problems cited in our report.

We discuss Census’s responses to our findings and recommendations in greater detail at the
end of each chapter of this report. The bureau also provided technical clarifications on the
text of our draft report, which we have incorporated into the final report as appropriate.
Census’s response is included in its entirety as Appendix D.




                                             iv
U.S. Department of Commerce                                             Final Report IPE-18046
Office of Inspector General                                                     September 2006

                                    BACKGROUND

The decennial census is a constitutionally mandated population count conducted for the
purpose of reapportioning seats in the U.S. House of Representatives. Decennial census
data is also used for a myriad of other purposes, such as redrawing state legislative
district boundaries and allocating federal funds to state and local governments. Decades
of decennial censuses have provided official, uniform information on the nation’s social,
demographic, and economic trends. Because of its importance, the decennial census
should be as accurate and complete as possible.

The Census Bureau has reengineered its strategy for the 2010 decennial to improve
accuracy, reduce risks, and contain costs. The new strategy is to (1) replace the decennial
long form with a smaller annual survey known as the American Community Survey, (2)
improve the bureau’s address list and geographic database, and (3) conduct a program of
early planning, development, and testing culminating with a 2008 dress rehearsal of the
actual 2010 census.

A site test is a partial census of population and housing that the bureau conducts under
realistic conditions in selected areas. The purpose is to determine the validity and
effectiveness of a variety of operations, procedures, and systems prior to a decennial
census. The Census Bureau is currently conducting such a test (called the 2006 Census
Test) in two locations—a portion of Travis County, Texas, that includes parts of the city
of Austin and its suburbs, and the Cheyenne River Reservation and Off-Reservation Trust
Land in South Dakota. The bureau chose these two sites because their demographics and
geography support test objectives.

Most residents in the United States live in single-family houses, apartments, and mobile
homes. But more than 7.8 million people live in group situations such as college
dormitories, nursing homes, prisons, migrant worker dormitories, convents, and group
homes. The Census Bureau calls these forms of housing group quarters.

Since the 1970 decennial, the bureau has used different procedures to enumerate this
population, because counting group quarters differs from enumerating other types of
housing units. During the 2000 decennial Census, 48.9 percent—nearly half—of the
information collected at group quarters was gathered from the records maintained by
public and private organizations that identify and describe a set of persons or addresses
that are participants, licensees, or recipients of a prescribed activity. Such administrative
records are used in instances where residents are unable to fill out the census
questionnaires themselves or are difficult to contact. Examples of group quarters
facilities that more often rely on administrative records include correctional facilities,
hospitals, nursing homes, and group homes. However, using administrative records is
generally not as accurate as collecting information directly from the respondent because
the records often lack Hispanic origin information and may only contain limited race
information (e.g., black, white, other). The 2006 Census Test questionnaire asked about
Hispanic origin, contained six race categories, and included a write-in ancestry/tribe
question. (See Appendix A.)



                                              1
U.S. Department of Commerce                                                     Final Report IPE-18046
Office of Inspector General                                                             September 2006


The household questionnaire that generally works well for small groups of related
persons in a housing unit is not effective for counting unrelated persons living in a group
quarters situation, such as a college dormitory or nursing home, because the household
questionnaire collects the relationship information (e.g., spouse, child, stepchild,
grandparent, sibling) of the people living in the household. A group quarters enumeration
questionnaire, called the Individual Census Report (ICR), does not collect relationship
information. (See Appendix A.) A group quarters questionnaire contains nine questions
and is considered complete only if at least three of the first five questions are answered:
                        •     Name
                        •     Sex
                        •     Date of birth
                        •     Hispanic origin
                        •     Race

Enumerating group quarters in the 2006 Census Test consisted of developing a list of
potential group quarters, validating the list to verify and define the type of group quarters,
and enumerating group quarters residents.

Development of the Group Quarters List. One of the first, and most critical tasks, was
to develop a comprehensive list of potential group quarters. In 2000, the bureau created
the list from scratch. The 2006 Census Test developed the list using group quarters
identified in (a) the 2000 Census, (b) two commercial administrative lists, (c) the address
canvassing operation, and (d) other bureau survey work. 1 This effort began in 2004 and
ended in September 2005, following the completion of the address canvassing operation.

Validation of the Group Quarters List. Once the 1,778 potential group quarters
(referred to as other living quarters by Census) in the Travis County local Census office
area were identified and compiled, Census employees visited every potential group
quarters and conducted an interview using the “2006 Other Living Quarter Validation
Questionnaire” in December 2005 through mid-January 2006. The spiral bound, 35-page
validation questionnaire guides the resident or facility administrator to identify the
address as a housing unit or group quarters. If a group quarters, through a series of
questions, the facility type, contact name, and phone number are collected. Once the
completed validation questionnaire has confirmed a group quarters residence, an advance
visit questionnaire is used to schedule an enumeration appointment.

Group quarters enumeration. Following the validation operation, a complete list of
verified group quarters was compiled for enumeration, which occurred April through
mid-May for the 2006 Census Test. Enumerators placed ICRs and a copy of the Census
bureau privacy notice in addressed envelopes to (1) distribute to group quarters residents
for them to fill out, (2) leave with administrators (such as dorm resident managers) to
distribute, or (3) leave with administrators to fill out. In some cases they visited each
group quarters resident or met with the administrator to count residents.

1
 Primarily field work associated with the American Community Survey that targets areas for updating the
map and address databases.


                                                   2
U.S. Department of Commerce                                               Final Report IPE-18046
Office of Inspector General                                                       September 2006


After collecting the information, enumerators checked to ensure all ICRs were accounted
for and complete. The ICR forms for each group quarters then were bundled together in a
single envelope and passed on to the crew leader who also reviewed them. Once at the
local Census office, a clerk checked each one in by scanning the barcode. After check-in,
20 group quarters went through the quality control reinterview process, which meant they
were randomly selected for Census office clerks to call the group quarters contact person
and confirm that an enumerator visited the correct facility at the correct address and
obtained an acceptable population count (i.e., a number that falls within twenty percent
above or below the enumerator’s count). This quality control check helped ensure that the
enumerators had correctly done their jobs, and that none of the 20 selected for quality
control checks failed. All completed ICRs were rescanned (checked out) and shipped to
Census’s National Processing Center in Jeffersonville, Indiana.

The table below summarizes the four major field operations conducted by the bureau to
enumerate people living in group quarters.

Table 1: Summary of Group Quarters (GQ) Operations
                                     2006 Census Test Operations
                      GQ List              Address            GQ Validation/
 Operation                                                                             GQ Enumeration
                   Development            Canvassing          Advance Visit
                June 2004 – with
                                         July 2005 –           December 2005 –           April 2006 –
   Dates       updates throughout
                                       September 2005           January 2006              May 2006
                2006 Census Test
Description    List created using:    Identify potential    Listers visited 1,778     Enumeration of
               • 2000 GQs             “Other Living         OLQs in Austin and 84     all identified GQ
               • Administrative       Quarters” (OLQs)      OLQs on the Cheyenne      facilities takes
                    records                                 River Reservation to      place
               • Address              Ensure addresses      designate address
                    Canvassing        are correct and/or    status as a:
                    (Other Living     make changes to       • GQ
                    Quarters)         update the Master     • Housing Unit
               • Other Census         Address File          • Non-residential
                    survey work                             • Vacant
                                                            • Transient
                                                            • Duplicate
                                                            • Other

                                                              GQ administrators
                                                              contacted regarding
                                                              upcoming GQ
                                                              enumeration, privacy
                                                              and confidentiality are
                                                              discussed
Source: U.S. Census Bureau, December 2005. 2006 Census Test Project Management Plan, 2010 Census
Memoranda Series No. 8 (Reissue), Washington, D.C.: U.S. Census Bureau.




                                                3
U.S. Department of Commerce                                         Final Report IPE-18046
Office of Inspector General                                                 September 2006

                OBJECTIVES, SCOPE, AND METHODOLOGY

The Office of Inspector General conducted this review in accordance with the Quality
Standards for Inspections issued by the President's Council on Integrity and Efficiency,
dated January 2005, and under the authority of the Inspector General Act of 1978, as
amended, and Departmental Organization Order 10-13, dated May 22, 1980, as amended.

The objectives of this review were to: (1) assess whether the recommendations regarding
group quarters operations made by internal and external reviews following the 2000
Census and 2004 test were addressed, (2) assess group quarters operational procedures
and processes for new or continuing problems, and (3) to the extent possible,
independently assess the completeness of the group quarters listing prepared for the
Census 2006 Census Test.

We conducted our review from March through July 2006 at bureau headquarters in
Suitland, Maryland, and the test site in Travis County, Texas. We did not include the
Cheyenne River Reservation and Off-Reservation Trust Land in South Dakota (Census’s
second test site) in this review because there are few group quarters located there.

We reviewed the bureau’s most recent administrative, technical, training, and
instructional manuals covering the group quarters validation and advance visit operation
and the group quarters enumeration operation. We also reviewed Census 2000 manuals.
In addition, we reviewed a number of evaluations of the Census 2000 group quarters
operation (see Appendix C) and pertinent census test and 2010 planning and decision
memorandums. We also conducted Internet searches for group quarters information for
the portion of Travis County associated with the test.

We observed group quarters enumeration during the week of April 9 to 14, 2006, the
second week of operation, and conducted additional follow-up in Travis County June 14-
15, 2006, which included meeting with listers who conducted the December 2005 group
quarters validation operation. During the enumeration operation, we observed meetings
between the field operations supervisor and crew leaders, attended numerous crew
leaders meetings, and observed enumeration of three group quarters. We also met with
group quarters administrators and independently verified some group quarters. At the
Austin, Texas, local Census office, we observed the office clerks responsible for
document scanning and quality control. We also reviewed more than 200 ICRs and other
internal communications and documents associated with managing the operation. We
conducted interviews with headquarters, regional managers, local office managers, and
numerous field staff during and following our April 2006 field visit. In Washington,
D.C., we observed a group quarters focus group session with group quarters facility
representatives, which was conducted for the Census Bureau by a consultant, and
reviewed more than 1,500 completed validation questionnaires at Census headquarters.

During the review, we briefed group quarters managers on our work and initial findings.
At the conclusion of our review, we discussed our findings with the Associate Director
for Decennial Census and other key bureau staff at an exit briefing on September 6, 2006.



                                            4
U.S. Department of Commerce                                                       Final Report IPE-18046
Office of Inspector General                                                               September 2006

                          OBSERVATIONS AND CONCLUSIONS

I.         Previously Recommended Solutions to Many Census 2000 Group Quarters
           Problems Were Tested in the 2006 Census Test

After the 2000 census and 2004 census test, a number of operational assessments and
evaluations were issued by Census, the National Research Council of the National
Academy of Sciences (NRC), the Government Accountability Office (GAO), and our
office. Census for its part conducted the most detailed reviews of the group quarters
operation, issuing three separate reports in 2003, 2004, and 2005. An objective of this
review was to determine the extent that the bureau addressed the recommendations,
specific to group quarters, discussed by two or more reports. The table below is a
summary of the major recommendations. A full listing of the reports is in Appendix C.

Table 2: Summary of Group Quarters Recommendations
                                                                                           2
                                                      REPORTS & EVALUATIONS
Recommendation                      Census     Census Census    NRC    GAO    GAO                      OIG
                                    (2005)     (2004)   (2003) (2004) (2005) (2003)                   (2004)
Improve group quarters
address listing
Reduce duplication between
housing units and group
quarters
Revise group quarters
definitions
Revise group quarters
questionnaires
Track individual forms from
enumeration through data
capture
Revisit group quarters
procedures
Count people where they
sleep (versus where records
are kept)

The Census bureau addressed many of the issues that surfaced during the 2000 Census in
the 2006 Census Test and officials said they intend to conduct both formal and informal
reviews of the 2006 Census Test results. We found that Census solved some basic group
quarters enumeration problems by incorporating the recommendations from the earlier
assessments of the 2000 Census in the 2006 Census Test.

Improve the group quarters list and reduce list duplication. After the 2000 Census,
one recommendation was to integrate the group quarters address list development
operation with the housing unit address list operation. To do this, during the 2004 and

2
    A bibliography of the reports from which the recommendations came is listed in Appendix C.


                                                     5
U.S. Department of Commerce                                            Final Report IPE-18046
Office of Inspector General                                                    September 2006

2006 Census Tests, potential group quarters were identified as other living quarters
during address list canvassing operation. Census procedures called for employees to
knock on every door in every neighborhood to verify housing unit status and determine
whether, for example, multiple households existed at any one address or the house served
as a group quarters. Addresses deemed potential group quarters were designated as other
living quarters and validated during a separate group quarters validation operation.
According to the bureau, a benefit of combining the two address list operations may be a
reduction in duplications on group quarters and housing unit lists. (The bureau is
conducting a formal operational assessment to evaluate the effectiveness of the other
living quarters operation but has missed its final report issue date, planned for May
2006.)

Revise group quarters definitions. The 2000 group quarters definitions and terminology
were not always consistent or current with that of other federal agencies, state and local
officials, or the understanding of the general public. For the 2006 Census Test, group
quarters definitions were based on the feedback from nine focus groups conducted in five
cities across the country, expert interviews, consultations with federal interagency
working groups, and the 2004 test results. The Census Bureau will now evaluate how
respondents identified their group quarters type during the group quarters validation
operation of the 2006 Census Test and use information from focus groups and local
Census office staff debriefings to assess whether the new definitions were effective.

Revise and better track the group quarters ICRs. Changes were made to the ICRs
based on bureau tests after Census 2000. For example, question No. 7 on the 2006 form
(“Did you stay in this facility on the night of Saturday, April 1, 2006?”) is a research-
driven question to detect individuals counted more than once. This question and other
changes (e.g., form layout, elimination of skip patterns, word changes) are part of the test
and will be subsequently reviewed.

Count people where they sleep (versus where records are kept). “Special places” was
a Census 2000 term that referred to institutions with group quarters where people live and
sleep, such as University of Texas and its dormitories. In 2000, enumeration was at the
group quarters level, while validation occurred at the special place level. As a result,
some group quarters residents were counted as living at the main address of, for example,
the college instead of the actual street address of the dormitory which could be blocks or
miles away. This resulted in large concentrations of people being placed in the wrong
geographical location, substantially increasing the population count in some areas and
decreasing it in others, which could potentially impact redistricting efforts. For the 2006
Census Test, Census conducted validation and enumeration operations at the actual group
quarters locations.

As evidenced above, the Census Bureau introduced several changes in operations and
procedures in its 2006 Census Test of group quarters enumeration. Its efforts to try new
methods to develop the list and test new definitions contrast with the findings in our 2006




                                             6
U.S. Department of Commerce                                                  Final Report IPE-18046
Office of Inspector General                                                          September 2006

address canvassing report 3 that noted that the bureau had missed opportunities to test new
operations.


Census Response and OIG Comments

In its response to our draft report, the Census Bureau provided clarification or additional
details on this section, some of which have been incorporated in the text of the final
report.




3
 U.S. Department of Commerce, Office of Inspector General, March 2006. Valuable Learning
Opportunities Were Missed in the 2006 Test of Address Canvassing, OIG-17524. Washington, D.C.:
Department of Commerce OIG.


                                                 7
U.S. Department of Commerce                                                        Final Report IPE-18046
Office of Inspector General                                                                September 2006

II.      Issues Surfaced in Our Review of the Group Quarters Validation
         Documentation and Require Resolution

During our reviews of other living quarters validation questionnaires and the group
quarters enumeration list and our observation of the enumeration operation, we noted that
non-traditional student housing, such as private dorms and student cooperative housing,
could not be categorized into the bureau’s 2006 group quarters definitions 4 . (See
Appendix C.) Most non-traditional student housing units were not enumerated as group
quarters.

In addition, when we reviewed the other living quarters validation booklets, we learned
Census had no process in place to quickly and efficiently validate large apartment
complexes, thereby costing Census valuable resources in terms of enumerator time,
salary, and supplies.

A. Non-traditional student housing did not match Census group quarters definitions

Enumerating private dormitories as group quarters would be cheaper and increase
Census accuracy. There are at least eight private dorms that provide college and
university students room and board for the academic year in Austin. These private dorms
are independent of college/university-sponsored housing and do not meet the bureau’s
definition of college/university group quarters. During our April 2006 visit, local Census
officials told us private dorms were a concern, but Census headquarters officials were
unaware of the high number of private dorms in Austin until we brought it to their
attention. Since then, the bureau has told us it conducted a focus group session via
telephone with private dorm and student cooperative administrators across the country in
August 2006 as part of ongoing research to refine definitions of group quarters.

During the validation operation, two private dorms were erroneously identified by
residents as group quarters. Six private dorms were identified as residential housing units.
As a result, two private dorms were enumerated during the group quarters enumeration
operation in April 2006, but the apartment addresses that the bureau had for the
remaining six dorms received the Census regular housing unit questionnaires by mail.
Census’s non-response follow-up (NRFU) enumeration began the last week in April just
prior to the time that the semester ended and students left campus. If students have
already left, NRFU enumerators are required to make six attempts to contact the resident
before visiting the dorm manager to obtain resident information. This consumes an
enormous amount of time and resources and often results in missing information, since
records kept by dorm management (e.g., lease information) typically lack Hispanic origin
and detailed race information. Hispanic origin and race data is used to monitor and


4
  The definition of group quarters is a place where unrelated people live or stay which is normally owned or
managed by an entity or organization providing housing and/or services for the residents. One type of
group quarters is a “residence hall, dormitory, or fraternity/sorority house for students, ” defined as
residence halls and dormitories owned, leased, or managed by a college, university, or seminary, as well as
fraternity and sorority housing recognized by a college or university.


                                                     8
U.S. Department of Commerce                                            Final Report IPE-18046
Office of Inspector General                                                    September 2006

enforce compliance with civil rights laws that govern equal opportunity in employment,
voting, housing, mortgage lending, health care services, and education.

Table 3: Private Dorm NRFU Workload
        No. of Units                                    We identified six private dorms and
Private                   Units in     % of Units       obtained from the bureau the number
        in Census’s
Dorm                      NRFU         in NRFU          of housing unit questionnaires and
        Address File
                                                        the number of non-response follow-
   1             469               469            100   up cases for each dorm. Four dorms
   2*               6                 6           100   had to be 100 percent enumerated
                                                        during NRFU. (See Table 3.)
   3             194               194            100   Counting students during group
                                                        quarters enumeration would have
   4             182               155               85
                                                        been more efficient because it takes
   5              80                 35              44 place during the school year, which
                                                        increases the chance of obtaining
   6             107               107            100   information from the respondent. In
 Total         1038                966               93 addition, enumerators work with
                                                        dorm administrators from the start to
*This dorm actually contains 90 separate apartments.
                                                        obtain a list of rooms and collect
Source: Census                                          information about residents no
                                                        longer residing there. We had
concerns about the second dormitory, because records indicated that it only contained six
rooms, which seemed unlikely. We called to verify the number of rooms. Census’s
number is incorrect—the dorm actually has 90 rooms. The 2006 Census Test population
counts for these addresses were not available as of August 10, 2006, so we could not
determine how many people were counted at the addresses. Treating such facilities as a
group quarters would make it more likely that all rooms and their residents are accounted
for.

The bureau should reconsider its definitions and examine whether private dorms would
be better categorized as group quarters.

Inconsistent coding of student cooperative housing skews group quarters facility
and population counts. Austin has at least 15 cooperative housing facilities for students.
Cooperative housing facilities (co-ops) are non-profit, member-owned facilities used by
college/university students to share cooking and cleaning responsibilities. Typically
residents have keys to lock their rooms, share bedrooms with one or two other
roommates, and receive their mail at the same address as the other co-op residents (i.e.,
no individual mailboxes).

During the validation operation students living in co-ops identified the residence as:
   • an adult (non-correctional) group home
   • a residence hall, dormitory
   • “none”, meaning that it is a group home that does not fit into any Census bureau
       group quarters categories,


                                             9
U.S. Department of Commerce                                           Final Report IPE-18046
Office of Inspector General                                                   September 2006

   •   a private residence, meaning it is not a group quarters

The opportunity to select “none” was new for the 2006 Census test, and will allow
Census to discern whether facilities identify themselves within the current group quarters
definition. Residents of 6 of the 15 co-ops chose “none” because they considered
themselves a group home but did not identify with Census’s group quarters definition
types.

The student co-ops in Austin, like the private dormitories, are not owned, leased, or
managed by the university. Consequently, they may be counted in another group quarters
population, or may be missed entirely if only one questionnaire is sent to the co-op,
because one resident might get the document and answer only for himself and not the
whole household. In addition, the household questionnaire is not appropriate for groups
of unrelated people living together. Similar to private dorms, the bureau needs to consider
how co-ops can be categorized as group quarters and redesignate such non-traditional
student housing as group quarters.

B. Treatment of large apartment complexes needs to be revisited

The group quarters validation operation verified 1,778 other living quarters addresses as
either a group quarter, a residential housing unit, or a non-residential building. Our
review of the other living quarters validation booklets showed 42 percent were residential
apartments in five large complexes. These apartment complexes contained individual
housing units, per Census’s definitions, and should not have been identified as other
living quarters during address canvassing. But since they were on the other living
quarters validation list to be verified, hundreds of validation booklets were filled out for
apartment units, expending an enormous amount of enumerator time and resources.
Although we did not observe the validation operation, we reviewed more than 1,500
validation booklets and interviewed three former group quarters validation listers. One
lister described having hundreds of validation booklets to complete for one apartment
complex. The listers also said that they spent days sitting at home completing between
35-70 other living quarters validation booklets per day (eventually they were directed to
stop answering each question in the booklet and only fill in the final unit designation
page).

We visited and spoke with apartment management staff at two complexes, and they
confirmed no organization or groups rented units, unless it was a typical roommate
situation. Based on our subsequent discussions with local Census office officials, we
believe the apartment complexes were misdesignated as other living quarters during the
address canvassing operation due to lister error.

According to one of the group quarters validation listers, who also worked on the NRFU
operation, Census bureau procedures for apartments are problematic because each
apartment address is identified as an individual housing unit. For example, 100 Main St.
Unit 1, 100 Main St. Unit 2, and so on, are considered by Census to be individual housing
units that are not associated with each other or an overall apartment complex.



                                            10
U.S. Department of Commerce                                                      Final Report IPE-18046
Office of Inspector General                                                              September 2006

Consequently, if there are 60 apartments that need to be verified during the group
quarters validation operation, 60 separate OLQ validation questionnaires have to be filled
out. During NRFU, if the residents of 60 apartments did not send in their questionnaire,
the workload would most likely be assigned to more             “It would be much more
than one enumerator, potentially causing problems with         customer oriented if 1 or 2
apartment management staff who may be approached               people came [during NRFU] to
by several enumerators after each has made six                 get information instead of 10 to
interview attempts. It is possible that ten or more            12 without any rhyme or
                                                               reason.”
enumerators could potentially visit the same apartment
complex staff causing confusion and frustration, and                      Austin Private Dorm
reducing the staff’s willingness to assist the bureau (see                       Administrator
quote in box). At both of the complexes we visited, it
was made very clear that Census’s process was unsatisfactory. The apartment managers
cited problems such as working with multiple enumerators, enumerators coming at
different times instead of getting all of the information in one visit, and enumerators
arriving at the beginning or end of a month, which is the busiest time at apartment
complexes because tenants are moving in and out and paying rent.

The processes used to enumerate large apartment complexes appear unwieldy, yet Census
has not identified or altered its enumeration procedures for these apartment facilities.
Currently, the operations suffer because of (1) the inefficient use of lister and enumerator
time, (2) waste of bureau resources such as other living quarters validation
questionnaires, and (3) counterproductive processes that rely on busy apartment
managers for administrative information. 5

Census defines quality control as statistical methods that validate products or operations
and quality assurance as a systematic approach that builds accuracy and completeness
into a process. While the quality control processes are readily apparent, Census’s quality
assurance—its ability to identify, quantify, and rectify problems in a timely manner—is
lacking. Census needs to review why, with all of its resources devoted to this effort, it has
not identified the problems we encountered. As such, examining its quality assurance
methods to better identify problems occurring during field operations, and reviewing its
procedures, not only for handling operations occurring within apartment complexes, but
also for the entire group quarters process, would be beneficial.

Recommendations

The Census Bureau director should ensure that appropriate actions are taken to:

    1. Examine and revise, as necessary, Census’s quality assurance methods to identify,
       quantify, and rectify problems.



5
 Multiple enumerator visits are also a problem for administrators responsible for two or more group
quarters.


                                                   11
U.S. Department of Commerce                                            Final Report IPE-18046
Office of Inspector General                                                    September 2006

   2. Designate non-traditional student housing (e.g., private dorms, cooperative
      housing facilities) as group quarters.

   3. Reduce the inefficiencies associated with listing, potentially validating, and
      enumerating large apartment complexes by (a) better preparing group quarters
      address canvassing listers with examples of what are and what are not other living
      quarters, (b) determining if there are better ways to identify multiple units
      associated with an address to reduce the group quarters validation workload, and
      (c) efficiently assigning non-response follow-up enumerators to large apartment
      complexes.



Census Response and OIG Comments

The bureau has already begun work on recommendation 2 and concurred with
recommendation 3, however it stated, in its response to recommendation 1 of our draft
report, that its quality assurance methods are sufficient to identify and quantify problems.
We would appreciate more detailed information about the bureau’s relevant quality
assurance methods in the action plan.

In addition, Census asserted that headquarters Field Division managers were aware of
private dorms in Austin. If so, that knowledge was not well-circulated throughout
headquarters based on conversations with Decennial Management Division staff and the
Age and Special Populations branch. The bureau also points out that the nonresponse
follow-up (NRFU) operation started in April, suggesting that students might not have left
yet. We have changed to the text to reflect that NRFU enumeration began the last week in
April, although we continue to maintain that there was not sufficient time to enumerate
college students prior to the semester’s end, which was May 3rd for one university. The
bureau also clarified why four of the six dorms were 100 percent enumerated during
NRFU, stating that the compressed test schedule did not allow enough time for the
addresses to be included in the housing universe to receive a questionnaire in the mail.
The bureau assumes some students would have responded by mail if they had received a
questionnaire.

Census also states that the reason why so many enumerators visited private dorms was
because the vacant/delete operation was conducted at the same time as NRFU. The
bureau has decided that these operations will not occur concurrently in the 2008 dress
rehearsal or the 2010 decennial, which would appear to satisfy at least one part of
recommendation 3.

We look forward to receiving more detailed information in the bureau’s action plan about
steps taken or planned by Census to address these recommendations.




                                             12
U.S. Department of Commerce                                            Final Report IPE-18046
Office of Inspector General                                                    September 2006

III.   The Final Enumeration List Missed Some Group Quarters and Contained
       Duplicates

Once the Census Bureau compiled a list of all potential group quarters for the 2006
Census Test, it was refined by the group quarters validation operation, resulting in a final
list of group quarters to be enumerated. However, we found a number of group quarters
that were not on the final enumeration list. We also found duplicates—addresses that
appeared on both the enumeration and housing unit lists or group quarters that appeared
twice on the enumeration list.

A. Additional research may improve the accuracy and completeness of the group
   quarters enumeration list

The GQE list was incomplete. After conducting a limited Internet search and speaking
with only four group home administrators, we learned there are at least 15 group quarters
that were not on the list. In all likelihood, many more were missed given the modest
nature of our inquiry. Identifying group quarters is important to those representing the
various constituencies in group homes, even if the residents are counted via the housing
unit questionnaire or during non-response follow-up operations, because data users want
accurate facility and population counts. Moreover, Census officials said that the bureau
should facilitate obtaining the best count of the population by using the appropriate
operation, such as group quarters enumeration for group quarters. However, group
quarters enumeration can only occur if facilities have been correctly identified.

One of the biggest problems in locating small, residential group quarters is that they can
blend into otherwise single family neighborhoods. The address canvassing operation was
often unable to identify residential dwellings as group quarters, because most residents
were not home when the listers visited the address. Below are two such group quarters
that we identified that were not on the list. One is a religious quarters and the other is a
group home.

Figure 1: Austin Group Quarters




Source: OIG

Excellent internet resources are available to help identify small group homes that are
difficult to locate. For example, group home administrators told us they had to be


                                             13
U.S. Department of Commerce                                                             Final Report IPE-18046
Office of Inspector General                                                                     September 2006

licensed through the state and, in some cases, they are federally licensed. Using a state of
Texas website (see Figure 2), we were able to identify seven group homes located inside
the local Census office test area that had not been included on the enumeration list. The
website provides a listing of “intermediate care facilities for people with mental
retardation,” referred to as ICF/MR facilities, 6 by city, county, or zip code in the state and
it also provides occupancy information.

We spoke with a group quarters administrator whose company is responsible for more
than 20 group homes of various types in Travis County. The administrator independently
validated the website’s accuracy. He confirmed the existence of seven group homes in the
local Census office district that we had identified from the website. (Only two of the
seven were on Census’s group quarters enumeration list.)

        Figure 2: Texas Department of Aging and Disability Services Website




        Source: http://www.dads.state.tx.us/business/mental_retardation/icfmr/search/index.cfm


While every state may not have a similar website, Census could work directly with state
licensing agencies to ensure that licensed group homes were captured on the group
quarters list. Bureau officials suggested the Local Update of Census Addresses (LUCA)
might be an appropriate mechanism for working with state and local officials. LUCA is a
voluntary program that allows local governments to review Census address lists for
accuracy and completeness. However, only 53 percent of the eligible governments
participated in 2000, and of those, only 36 percent provided any updates in the form of
additions, deletions, or corrections. In addition, state and local officials may not focus on
group quarters during the LUCA process. It would be more advantageous for the bureau
to target knowledgeable state officials interested in making sure the bureau has an
6
 ICF/MR facilities receive Federal and State funding to provide "active treatment services" to persons with
mental retardation or related conditions.


                                                       14
U.S. Department of Commerce                                                        Final Report IPE-18046
Office of Inspector General                                                                September 2006

accurate group home list, such as the officials who work with licensing and funding
ICF/MR facilities.

In addition, four group quarters were identified during the validation and enumeration
operations that were not on the enumeration list. Although these homes would normally
have been added during the Census, it raises a concern that they were identified only
because group quarters administrators volunteered the information; not because probing
questions were asked by the field staff. The only question in the validation questionnaire
related to other group quarters is specific to that location not other locations. Additional
questions could be asked during operations to identify other group quarter facilities.

Several facility and group quarter names on the GQE list were inaccurate. From the
state of Texas website in Figure 2 above, we learned that the names of some facilities7
and group quarters were incorrectly listed. Even such small errors could impact the field
staff’s ability to identify group quarters, recognize potential duplication, and ultimately
obtain an accurate count. We were able to verify 15 group quarters, and their
corresponding facility name, on the list using the Texas state web site. But most of those
same facilities and group quarters were incorrectly named on Census’s group quarters
list. Since facility and group quarters names were collected during validation operations,
these errors most likely occurred because the individual that the lister spoke to during the
validation operation did not have the knowledge to correctly answer the questions.
Verifying national, state, or local official records might facilitate obtaining more accurate
information.

Both Census and the National Research Council suggested, in separate reports, using the
Internet to assist with developing the group quarters list. However, for the 2006 Census
Test, the bureau did not try web resources. Given our own success finding group quarters
on the Internet in such a short time and the on-going problem identifying small group
homes in residential neighborhoods, we suggest the bureau use the Internet and other
resources to improve both the completeness and accuracy of the list.

B. Duplication remains problematic

During Census 2000, there were a significant number of duplicates of individuals within
group quarters records, particularly for group homes and other small establishments with
average populations of fewer than seven residents. According to the Census Bureau, one
reason for this was that many facilities enumerated during the group quarters operation
also returned household questionnaires. Census did not solve this problem—it was also
evident in the 2006 Census Test.

GQE and housing unit list duplication. During our on-site observation of the group
quarters enumeration operation, we became aware of two group quarters facilities that
also received housing unit questionnaires. We then reviewed 59 group quarters addresses
to determine if any matched a housing unit address, which would mean that it also

7
 In Census 2000, “special places” referred to the larger institution containing the group quarters where
people sleep. This information is now collected as “facility name.”


                                                     15
U.S. Department of Commerce                                             Final Report IPE-18046
Office of Inspector General                                                     September 2006

received a housing unit questionnaire. Since small group home facilities are located in
residential neighborhoods, we focused on whether they were counted as housing units as
well as group quarters.

Six of the group quarters addresses that we identified were confirmed by Census bureau
staff as having also been listed as housing unit addresses that received housing unit
questionnaires, which may have resulted in duplication. Two of the six were inactive
residential addresses that were reactivated after the master address file was updated
against the U.S. Postal Service’s list of all delivery addresses served by postal carriers.
Two others were carried over from Census 2000 but were not identified as duplicates
during the address canvassing operation (which emphasizes the need to better train listers
on detecting duplicates). The remaining two were added during 2006 Census Test
operations.

GQE list duplication. We also found three instances where a group quarters appeared
twice on the group quarters enumeration list. The group quarters validation operation
should have identified one of the two addresses as a duplicate. But if a group quarter
validation lister does not code one of the two addresses he or she is validating as a
duplicate, both will remain on the enumeration list. The crew leader is supposed to
review and sign off on the other living quarters validation booklets, but the errors were
not identified. Fortunately the three duplicates were caught prior to enumeration in the
group quarters enumeration operation. But this again points to the need to better
emphasize address duplication problems during training.

The bureau needs to improve its training program and instructions to listers and
enumerators on identifying and designating addresses as duplicates. In addition, steps
should be taken to ensure that when Census’s master address file is updated by the U.S.
Postal Service file, the software matching program locates and matches the Postal Service
address to the “active” group quarters address as opposed to the “inactive” housing unit
address for the same location. According to Census officials, it appears that the match
occurred on the first address found in the master address file, which happened to be an
inactive address. Furthermore, the address lists used in various Census operations are
extracted from the master address file, which contains every address and
physical/location description known to the Census Bureau. The bureau should explore
changing the definitions used to generate the lists for the address canvassing and group
quarters validation operations to reduce the potential for duplication. For example, if a
group quarters and housing unit share an identical address, designate only one or both as
“other living quarters” addresses to be verified in the group quarters validation operation.

Again, as mentioned in the previous section, Census’s quality assurance methods appear
lacking because they do not adequately capture the problems associated with the group
quarters validation and enumeration lists. Census can, just as we did, access online tools
(e.g., state licensing websites) to identify additional group quarters facilities and increase
the overall completeness of the lists. Acknowledging that gaps on the list exist, combined
with our limited, yet successful search for additional group quarters, should foster a




                                             16
U.S. Department of Commerce                                          Final Report IPE-18046
Office of Inspector General                                                  September 2006

dialogue at Census to further enhance the methods used to develop and evaluate the
group quarters lists.

Recommendations

The Census Bureau director should ensure that appropriate actions are taken to:

   1. Review and revise, as necessary, the methods used to evaluate the accuracy of the
      group quarters lists.

   2. Conduct additional research to more effectively find small group homes. Research
      could include (a) targeting knowledgeable state officials to obtain group home
      licensing lists, (b) conducting more Internet research, and (c) during the group
      quarters validation operation, asking small group home administrators about the
      existence of other facilities.

   3. Reduce address list duplication by (a) strengthening address canvassing and group
      quarters validation training and instructions regarding duplicates, (b) ensuring that
      the master address file software matching program correctly identifies group
      quarters addresses as opposed to inactive housing unit addresses when updated by
      the U.S. Postal Service file, and (c) explore modifying how potential duplicate
      addresses are filtered from the master address file for the address canvassing and
      group quarters validation operation.



Census Response and OIG Comments

In its response to recommendations 1 and 3 above, the bureau states that it will consider
part of the recommendation to assure a more complete list of the small GQs, and to
reduce duplication of the lists. The action plan needs to address exactly what Census is
agreeing or disagreeing to, and what actions it is taking.

With respect to recommendation 2, Census only agrees with conducting more internet
research to more effectively identify small group homes and will not pursue targeting
knowledgeable state officials or asking small group home administrators about the
existence of other facilities. Census stated that in 2000, asking such questions caused
more confusion and duplication. Previously in its response, the bureau pointed out
differences between the 2000 and 2006 Census Test process. In 2000, the procedures
were to validate at the special place level and enumerate at the group quarters level. Now
both activities occur at the group quarters level. Consequently the problems experienced
in 2000 may not be applicable. Moreover, how the questions were asked and how the
information was treated may have contributed to the Census 2000 “confusion and
duplication” problems. We request that Census address this in its action plan.




                                            17
U.S. Department of Commerce                                          Final Report IPE-18046
Office of Inspector General                                                  September 2006

The bureau also requested that the OIG clarify whether group quarters facilities that were
misidentified as housing units were enumerated during the 2006 Census Test. In those
instances, the group quarters were included in the census as a housing unit. However, as
we stated in the report, even if group quarters residents are accurately counted via the
housing unit questionnaire or during the non-response follow-up operation, group
quarters data users still want accurate facility and population counts.

Census stated that our recommendation to use the Internet and other resources to improve
both the completeness and accuracy of the list was a good suggestion, however it took
exception to our assumption that administrative documentation from national, state, or
local officials may be more accurate than respondent information. While official records
may not always be more accurate, we maintain that information collected for licensing
purposes in all likelihood is more accurate than a self-proclaimed “most knowledgeable
respondent.”

With regard to duplication, the bureau admits that some duplication still occurs but
believes the current amount of duplication is much smaller and that the integrated
approach of group quarters and housing unit address files should reduce the number of
duplicate addresses. The bureau stated, in response to our recommendation, that it would
consider part of the recommendation. We request that Census provide more detail in the
action plan as to what parts of the recommendation it agrees or disagrees with, and
describe actions taken or planned.




                                            18
U.S. Department of Commerce                                            Final Report IPE-18046
Office of Inspector General                                                    September 2006

IV.    New Methods for Improving Student Enumeration Need Consideration and
       Evaluation

Travis County was a good choice of location for testing group quarters enumeration of
college/university students because four universities lie within the boundaries set for the
2006 Census Test. Enumerating these universities’ group quarters proved particularly
challenging.

A. Enumerating fraternities and sororities was difficult

College students are a unique group to enumerate because of their variable schedules and
transient living arrangements in and around campus. During the 2006 Census Test,
students living in fraternity and sorority houses were one of the most difficult groups on
college/university campuses to enumerate. Although local Census office officials told us
that enumerating fraternities and sororities went well, the field staff who actually
conducted the operation told us they encountered a lot of resistance.

Typically group quarters enumerators obtain a list of names and room numbers from the
fraternity or sorority contact person, prepare and leave ICRs in envelopes for distribution,
and schedule a future pick-up date and time. But enumerators cited a number of common
problems in dealing with fraternity and sorority members including:

           a. difficulty scheduling appointments (in at least one case there was no main
              number at the fraternity house because all members had cell phones),
           b. no-shows at prescheduled meetings,
           c. incomplete returns of ICRs (for example, if 25 ICRs were left, only 17
              would be returned), and
           d. rude behavior towards enumerators.

Although some fraternities and sororities were cooperative, it took a significant amount
of time, resources, and effort to enumerate the residents of those that were not.
Enumerators often ended up asking students or a knowledgeable resident to provide
enough information to answer the required minimum of three out of the first five
questions on the ICR form. Bureau officials said this practice should only be used as a
last resort because a fully completed ICR provides the most comprehensive data.

Census headquarters officials said such difficulties are standard when dealing with
college students. However, we called one of the universities and easily found a Greek
Life and Education Office, which maintains listings of students affiliated with fraternities
and sororities. As a possible alternative, enumerators could have worked from an
administrative list built from information easily obtained from that office.

Developing a more effective strategy to work with the college and university fraternity
and sorority oversight organizations will be important for better enumeration during
Census 2010. The bureau should begin now to develop ways to work more closely with
local and national college or university-based fraternity and sorority organizations.



                                             19
U.S. Department of Commerce                                            Final Report IPE-18046
Office of Inspector General                                                    September 2006



B. Use of the Internet for student populations warrants exploration

Local Census office staff expected more than 6,700 ICRs to be returned from the
dormitories at one of the universities in Austin. But only 719 (11 percent) were actually
returned. The low questionnaire return rate may indicate student indifference, or it may
be that students never received the ICR. Census may want to evaluate its distribution
methods to see if this contributed to the low return rate. Because so many ICRs were not
returned, enumerators were faced with manually filling out the remaining 6,000 forms
using administrative records. The files obtained by the local Census office from the
university contained student and dorm room information.

We believe that Census should explore non-traditional strategies to obtain better response
rates from the student population. By doing this, the bureau would not have to rely on
incomplete data from administrative lists, which would result in better source information
and potentially free up bureau time and resources for other aspects of group quarters
enumeration. Even though a July 19, 2006, decision memo officially eliminates the
Internet response option for the 2010 decennial census, the bureau should reconsider this
decision and in view of the fact that today’s generation of students is an Internet
generation and explore ways to effectively use the Internet for enumeration of college
and university students. Most colleges and universities provide e-mail addresses and have
local housing information for students living in university or college housing.
Consequently student e-mail addresses can be associated with current campus addresses.
In our discussions with Census officials, they adamantly opposed online enumeration.
Concerns cited include: Internet security, the potential for negative publicity if a security
breach occurs, and lack of monetary savings due to the increased cost of secure online
systems. They also cited low response rates in the 2000 census and in several subsequent
tests of the Internet response option.

Recommendations

The Census Bureau director should ensure that appropriate actions are taken to:

   1. Consider using campus resources, such as a student Greek life office, in order to
      obtain administrative records for fraternity/sorority students.

   2. Explore using the Internet as a possible response option for the enumeration of
      college/university students living in group quarters.



Census Response and OIG Comments

Census stated, in its response to recommendation 1 above, that using administrative
records is already part of its process and that it is mandated to first make an attempt to
contact the group quarters resident. The point of this recommendation was for the bureau


                                             20
U.S. Department of Commerce                                             Final Report IPE-18046
Office of Inspector General                                                     September 2006

to expand its resource base and not solely depend on one source, for either initial
publicity efforts or administrative records.

The bureau disagrees with using the Internet to enumerate students, stating that it would
not be cost-beneficial or secure to do so. We are disappointed that Census is not
exploring the potential of using the Internet for a limited, Internet-savvy population. In its
response the bureau stated that it has studied using the Internet for 2010. The 2010
Decennial Census Program Decision Memorandum No. 14: Rationale for the Decision to
Eliminate the Internet Option from the DRIS Contract, dated July 19, 2006, is not a study
as Census’ response implies. Such a decision to not consider using the Internet should be
supported by serious and thorough study. Please provide copies of the evaluations or
studies conducted to support this bureau decision—regarding Internet response option
usage and costs as well as security—with the action plan.




                                             21
U.S. Department of Commerce                                           Final Report IPE-18046
Office of Inspector General                                                   September 2006

V.     Some Additional Group Quarters Processes and Procedures Warrant
       Management Attention

We found some group quarters enumeration processes and procedures that could be
improved upon in preparation for the 2008 dress rehearsal and the 2010 decennial. For
example, the double scanning of each group quarters ICR form that enters the local
Census office appears to be redundant and an inefficient use of clerk time. Our review
also identified complicated ICR forms and questions that hindered operations.
Improvements in these areas would be beneficial for group quarters operations in the
2008 dress rehearsal and 2010 decennial.

A. Double scanning all ICRs for check-in/out appears unnecessary

Once a group quarters has been enumerated, the local Census office prepares the forms
for shipping to the Jeffersonville, Indiana, processing facility. The local Census office
clerk scans the barcode label on each batch envelope of forms in the check-in box, then
scans the barcode of each individual record in the envelope. The barcodes link the forms
and batch envelopes, so if an ICR is somehow separated from its batch, a problem that
occurred during Census 2000, it can be easily re-connected to a specific group quarters
enumeration. (See Figure 3.)

                   Figure 3: Batch Envelopes at the LCO




                 Source: OIG
According to local Census office officials, Census uses a database program to select
every 10th group quarters for a quality check reinterview, in which a quality control clerk
opens a selected batch envelope and subsequently telephones to confirm that an
enumerator went to the group quarters and to verify the population of the facility. Batch
envelopes not checked for quality are placed in a check-out box. Then the envelopes and
records within are rescanned and shipped out to Jeffersonville, Indiana. (See Figure 4.)


                                            22
U.S. Department of Commerce                                                     Final Report IPE-18046
Office of Inspector General                                                             September 2006




Figure 4: Check In/Out Process of Group Quarters Individual Census Reports 8
                   Step 1                                    Step 2
  Bundled forms arrive at local Census office On arrival, each ICR form and batch
                                              envelope is scanned




                         Step 4                                                   Step 3
    Before shipment, forms are unbundled and re-scanned                    Forms wait for shipment




                                                 Step 5
              Batch envelopes full of forms are rebundled and shipped to Census’s
         Jeffersonville processing plant




Source: OIG and Census


8
    For group quarters not selected for the quality control reinterview.


                                                        23
U.S. Department of Commerce                                                          Final Report IPE-18046
Office of Inspector General                                                                  September 2006

Scanning ICR forms is a new process. During Census 2000 only batch envelope labels
were scanned in and out, but that caused problems identifying missing forms and
matching found forms that had been misplaced with the correct group quarters.

Linking the ICR forms to the correct group quarters is a necessary step to ensure
complete, accurate data. However, scanning all batch envelopes and all the ICR forms
inside, instead of scanning only the envelopes opened for reinterview, means that in 2010
an additional 15 million ICR barcodes would have to be scanned over what was scanned
in Census 2000 (using Census 2000 group quarters population count; see Figure 5).

The bureau’s attempt to improve the old process has unintentionally created redundancy
and results in an inefficient use of local Census office clerk time. For example, according
to one clerk responsible for scanning forms during the 2006 Census Test, when the
workload was at its peak, ICRs were removed from envelopes, scanned in, and then
immediately scanned out for shipping. Scanning the forms twice is really only necessary
for those from the batch envelopes that have been opened for the quality control process.

Figure 5: Projected Increase in Scanned ICRs from 2000 to 2010 9




          16
          14
          12                                                                         2010 Projected Total
          10                                                                          (Group Quarters &
           8                                                                           GQ Population)
                                                                                          16,035,386
           6
           4                                                     2000 Actual Total
           2                                                     (Group Quarters)
                                                                      384,572
           0
    Millions        Scanned GQ Documents




Source: OIG and Census


9
  In 2000, only group quarters facility labels were scanned in and out. According to: Group Quarters
Enumeration - Final Report. Census 2000 Evaluation E.5, Revision 1. 08/06/03, there were 192,286 group
quarters facilities enumerated in 2000. Doubling those facility labels (representing scanning in/out) results
in the 2000 Actual Total of 384,572. To calculate the projected increase in scanned documents for 2010,
the number of group quarters facility labels in 2000 was again doubled (representing scanned in/out facility
labels), and added to the total group quarters population from 2000, 7,825,407, doubled to 15,650,814
(representing scanning in/out of ICRs) resulting in the 2010 Projected Total of 16,035,386.


                                                     24
U.S. Department of Commerce                                            Final Report IPE-18046
Office of Inspector General                                                    September 2006

When we discussed this issue with bureau officials, they disagreed, claiming double
scanning is necessary to reduce the possibility of errors and lost forms. No ICRs were
scanned in 2000, but all are to be scanned in 2010, which increases both the cost and time
that the office clerks must devote to scanning. It occurs to us that this process may
increase errors during Census 2010 when volumes will be huge and the pace will be
brisk.

Census identified a problem with lost forms in 2000, and as an improvement to the
quality control process, the scan-in/scan-out of all ICR forms should help identify any
forms separated from their group quarters batch. However, tracking ICRs can be
accomplished through a much less time-consuming and lower cost alternative.

For example, instead of rescanning unopened batch envelopes for check-out, envelopes
could be sealed using a stamp, sticker, or label. After batches have been scanned in and
the envelopes sealed, those not selected for reinterview would be ready to ship. An
envelope with all the forms inside only needs to be rescanned before shipping if the seal
has been broken, which can easily be determined with a glance.

B. Sections of the ICR and other forms used for group quarters enumeration were
   complicated and confusing

Testing new questions and forms is an important part of the operational Census tests
leading up to the 2010 decennial. The 2006 Census Test included new wording for some
questions on the form to gauge how people would respond. Census will decide which
changes to implement for the 2010 decennial based on the data returned in the tests.
However, we found that some of the forms used in the 2006 Census Test hindered
enumerator efficiency and should be revised.

Repetition of responses to ICR test questions indicates respondent confusion. The
2006 group quarters ICR form is testing new or variations of the wording in several
questions. For example, question No. 8, “Do you live or stay in this facility most of the
time?” and question No. 9, “What is the full address of the place where you live or stay
most of the time?” are variations of the same questions in 2000. These questions provide
respondents with the option of listing an alternative address and also help with
identifying potential duplication. However, some dormitory residents were confused and
relisted the dorm address for question No. 9 when they had already answered yes for
question No. 8. Students also wrote a variety of addresses— dorm, mailbox, room, home,
and even a phone number— in the box labeled “Number” for street number. Census
officials said they did not intend for respondents to repeat the address already referred to
as “this facility” in question No. 8.

An appropriate method to address this, and eliminate the confusion, is the use of “skip
patterns.” Skip patterns direct a respondent to skip a question if the answer to a previous
question meets certain guidelines, and in fact, the ICR used in Census 2000 contained a
number of “skips.” However, cognitive testing conducted after the 2000 decennial




                                             25
U.S. Department of Commerce                                              Final Report IPE-18046
Office of Inspector General                                                      September 2006

determined that skip patterns are confusing, so they were eliminated for the 2006 Census
Test.

Nevertheless, it appears that a limited number of skip patterns might help reduce
confusion and errors, such as those the students made. For example, if a respondent
answered “Yes” to question No. 8 (he or she lives or stays at the dorm most of the time),
they would be directed to skip question No. 9 and go to the end of the form. If a
respondent answered “No” to question No. 8, then he or she would go on to answer
question No. 9. Bureau officials told us they will evaluate the effect of the changes on the
form, although that will not be part of one of the official assessments of the overall 2006
Census Test.

Crew leaders lacked sufficient information to effectively make enumerator
assignments. The Master Assignment Report for Enumeration Records (DD-201E GQE)
is used by crew leaders to record enumerator assignments, but this form only contains the
assignment area number, case identification number, and group quarters name; it does not
provide address information. The form is used to track and assign workload throughout
the operation. Once an assignment area is designated, the enumerator receives additional
information, such as the address and gender of group quarters residents (e.g., all male, all
female, both). But since crew leaders lacked address information when assigning
enumerators, they were unable to identify and assign group quarters locations in close
proximity to an enumerator’s home or even to each other. Efficient assignment of
enumerators reduces travel time and hourly costs for the group quarters operation.

The crew leader manual assumes that crew leaders are provided all of the materials
related to their district, including address information. However, local Census office
officials said providing all assignment area materials to the crew leaders was not
specified in the manual, and they decided to               Figure 6: Group Quarters Listing Sheet
distribute materials, which included address
information, after assignments were made. When we
discussed this with Census headquarters officials,
they responded that the master assignment report is
arranged by assignment area number, so all areas are
geographically next to one another. None of the
crew leaders that we observed used assignment area
numbers to make enumerator assignments. This is
likely due to the fact that assignment areas can
encompass relatively large geographic areas
consisting of several blocks. Moreover, associating a
specific address in an assignment area is not
intuitive and to do so would be time-consuming and
inefficient. Crew leaders should be provided with
adequate information to allow them to make
assignments that better maximize enumerator
efficiency.




                                              26 A

                                                                                           B
U.S. Department of Commerce                                              Final Report IPE-18046
Office of Inspector General                                                      September 2006

The Group Quarters Listing Sheet (DD-116) format caused problems. The DD-116
Group Quarters Listing Sheet is used by enumerators to summarize respondent
information. As shown in Figure 6, the form is designed with rounded corners (A arrow)
on the exterior border, which made the final box in the first column at the bottom of the
page too small to hand write the necessary information, so some enumerators did not fill
the box in. However, there is a middle column (B arrow) that was to be used to
sequentially tally the number the respondents. Since some enumerators did not use the
last row on the form, the final totals of respondents often did not correspond with the
actual number of residents in the Room/Bed Number and Name columns.

Unfortunately, this problem was not detected until after a large number of DD-116s had
been erroneously filled out. Correcting the forms caused a significant loss of time. The
DD-116 form should be redesigned to eliminate this problem.

Recommendations

The Census Bureau director should ensure that appropriate actions are taken to:

   1. Evaluate the costs and benefits of the ICR scanning process to determine if the
      intended goal to track ICRs could be achieved more efficiently, such as using a
      sealed envelope system.

   2. Assess the effectiveness of the new/newly worded ICR form questions and
      consider limited use of “skip” patterns to avoid respondent confusion that leads to
      redundant answers.

   3. Provide crew leaders with adequate information so that they can more efficiently
      and effectively assign work to group quarters enumerators.

   4. Redesign the DD-116 Group Quarters Listing Sheet to ensure that it does not
      inadvertently confuse enumerators and create rework.



Census Response and OIG Comments

Census disagreed with the first recommendation and concurs with the remaining three.

Census disagrees that double scanning all ICRs for check-in/out appears unnecessary,
stating that it is a standard procedure for all paper operations and that they desire a set of
procedures applicable to all operations. In its response the bureau stated that the use of
sealed envelopes would not address the problems identified in Census 2000. We are not
suggesting a change to the current procedure to scan all incoming ICRs. Therefore, the
Census 2000 problem of a questionnaire becoming detached from the envelope and thus
prohibiting identification of the appropriate group quarters to which it belongs becomes
irrelevant. The sealed envelope label is useful for identifying ICR forms from group


                                              27
U.S. Department of Commerce                                          Final Report IPE-18046
Office of Inspector General                                                  September 2006

quarters selected for the quality control reinterview process, and will need to be scanned
again to ensure that no ICRs were separated from their group quarters during this process.
Once an ICR is scanned in, the barcode would always be associated with the appropriate
envelope and group quarters.

In response to recommendation 2, Census said it is looking at revisions to the ICR to
incorporate skip patterns as appropriate. Census also stated in its response to
recommendation 3 that crew leaders had the information to assign enumerators close to
where they live, but the bureau said it will provide better training on how to use the
information. The bureau did not address why the Master Assignment Sheet, used by crew
leaders to make enumerator assignments, lacked addresses. If addresses were included,
additional training may not be necessary. Census should address this in its action plan.




                                           28
U.S. Department of Commerce                                          Final Report IPE-18046
Office of Inspector General                                                  September 2006

                     SUMMARY OF RECOMMENDATIONS

The Census Bureau director should ensure that appropriate actions are taken to:

   1. Examine and revise, as necessary, Census’s quality assurance methods to identify,
      quantify, and rectify problems. (See page 8.)

   2. Designate non-traditional student housing (e.g., private dorms, cooperative
      housing facilities) as group quarters. (See page 8.)

   3. Reduce the inefficiencies associated with listing, potentially validating, and
      enumerating large apartment complexes by (a) better preparing group quarters
      address canvassing listers with examples of what are and what are not other living
      quarters, (b) determining if there are better ways to identify multiple units
      associated with an address to reduce the group quarters validation workload, and
      (c) efficiently assigning non-response follow-up enumerators to large apartment
      complexes. (See page 10.)

   4. Review and revise, as necessary, the methods used to evaluate the accuracy of the
      group quarters lists. (See page 13.)

   5. Conduct additional research to more effectively find small group homes. Research
      could include (a) targeting knowledgeable state officials to obtain group home
      licensing lists, (b) conducting more Internet research, and (c) during the group
      quarters validation operation, asking small group home administrators about the
      existence of other facilities. (See page 13.)

   6. Reduce address list duplication by (a) strengthening address canvassing and group
      quarters validation training and instructions regarding duplicates, (b) ensuring that
      the master address file software matching program correctly identifies group
      quarters addresses as opposed to inactive housing unit addresses when updated by
      the U.S. Postal Service file, and (c) explore modifying how potential duplicate
      addresses are filtered from the master address file for the address canvassing and
      group quarters validation operation. (See page 15.)

   7. Consider using campus resources, such as a student Greek life office, in order to
      obtain administrative records for fraternity/sorority students. (See page 19.)

   8. Explore using the Internet as a possible response option for the enumeration of
      college/university students living in group quarters. (See page 20.)

   9. Evaluate the costs and benefits of the ICR scanning process to determine if the
      intended goal to track ICRs could be achieved more efficiently, such as using a
      sealed envelope system. (See page 22.)




                                           29
U.S. Department of Commerce                                          Final Report IPE-18046
Office of Inspector General                                                  September 2006

   10. Assess the effectiveness of the new/newly worded ICR form questions and
       consider limited use of “skip” patterns to avoid respondent confusion that leads to
       redundant answers. (See page 25.)

   11. Provide crew leaders with adequate information so that they can more efficiently
       and effectively assign work to group quarters enumerators. (See page 25.)

   12. Redesign the DD-116 Group Quarters Listing Sheet to ensure that it does not
       inadvertently confuse enumerators and create rework. (See page 25.)




                                           30
U.S. Department of Commerce                              Final Report IPE-18046
Office of Inspector General                                      September 2006

                              APPENDICES

APPENDIX A: 2006 Census Test Group Quarters “Individual Census Report”
                                 Front




                                    31
U.S. Department of Commerce                                 Final Report IPE-18046
Office of Inspector General                                         September 2006




           2006 Census Test Group Quarters “Individual Census Report”
                                     Back




                                      32
U.S. Department of Commerce                                             Final Report IPE-18046
Office of Inspector General                                                     September 2006

APPENDIX B: 2006 Census Test Group Quarters Definitions




(Side 2 of the flash card provides descriptions of adult correctional facilities)



                                              33
U.S. Department of Commerce                                      Final Report IPE-18046
Office of Inspector General                                              September 2006

APPENDIX C: Census 2000 Evaluations of Group Quarters Operations

U.S. Census Bureau, September 2005. Group Quarters Validation Evaluation, 2010
Census Test Memoranda Series No. 44, 2004 Census Test Evaluation Report #10,
Washington, D.C.: Census Bureau.

U.S. Census Bureau, February 2004. Special Place/Group Quarters Enumeration, Census
2000 Topic Report No. 5: Census 2000 Testing, Experimentation, and Evaluation
Program. Washington, D.C.: U.S. Census Bureau.

U.S. Census Bureau, August 6, 2003. Group Quarters Enumeration, Census 2000
Evaluation E.5, Revision 1. Washington, D.C.: U.S. Census Bureau.

National Research Council, 2004. Reengineering the 2010 Census, Risks and Challenges.
Panel on Research on Future Census Methods. Daniel L. Cork, Michael L. Cohen, and
Benjamin F. King, eds. Committee on National Statistics, Division of Behavioral and
Social Sciences and Education. Washington, D.C.: The National Academies Press.

U.S. Government Accountability Office, January 2005. 2010 Census: Basic Design Has
Potential, but Remaining Challenges Need Prompt Resolution, GAO-05-
661.Washington, D.C.: GAO.

U.S. Government Accountability Office, July 2003. Decennial Census: Lessons Learned
for Locating and Counting Migrant and Seasonal Farm Workers, GAO-03-
605.Washington, D.C.: GAO.

Office of Inspector General, September 2004. Improving Our Measure of America: What
the 2004 Census Test Can Teach Us in Planning for the 2010 Decennial Census, Report
No. OIG-16949. Washington, D.C.: OIG.




                                         34
U.S. Department of Commerce          Final Report IPE-18046
Office of Inspector General                  September 2006

APPENDIX D: Census’s Response




                                35
U.S. Department of Commerce                                             Final Report IPE-18046
Office of Inspector General                                                     September 2006


                           U.S. Census Bureau Comments on
               Enumerating Group Quarters Continues to Pose Challenges
                Draft Inspection Report No. IPE-18046/September 2006


General Comments

•      Overall - This document should reference the 2006 Census Test rather than the
       2006 test, Local Census Office (LCO).

•      There are Title 13 confidentiality concerns with identifying the group quarters
       (GQ) in the report (see pages 17 and 18). We suggest the actual names of the
       GQs be stricken from this report.


Specific Comments

Page 2 - “Enumerating group quarters in the 2006 test consisted of ....” We initially
develop a “potential list of GQs.” A firm list is made only after the GQ has confirmed
that it will be open and available to participate.

Page 2 - Development of the Group Quarters List: The footnote in this paragraph
should indicate association with ”ongoing surveys” rather than just the American
Community Survey. We also suggest that you indicate that other living quarters were
identified through the address canvassing operation.

Page 2 - Validation of the Group Quarters List: Throughout this paragraph, reference
should be made to “other living quarters or OLQs” rather than potential group quarters.
You noted that the 35-page validation questionnaire requires residents to identify their
facility type and give a contact name and phone number. This is only done after they
have first identified their ”type of living quarters,” e.g., housing unit (HU) or GQ. If it is
determined to be a GQ, then residents are next asked to identify their facility type and
provide a contact name and phone number. The questionnaire does ask for the contact
name before determining the type of OLQ, (Q.3). The phone number is asked only if the
OLQ is possibly a GQ; however, if it is a hospital or assisted-living facility that has no
qualified GQs, the phone number is collected before that is learned.

Through a series of questions, using the other living quarter validations (OLQV)
questionnaire, the contact person was guided through the steps necessary to validate the
type of living quarters at the OLQ address. Once an address was identified as a GQ, the
interviewer then asked the respondent to self-identify the type of GQ. This OLQV
questionnaire also captured the contact name and phone number for each GQ.

Page 3 - Table 1: Summary of GQ Operations: The description for Address
Canvassing should read: “Identify potential Other Living Quarters (OLQs)” since this is



                                              36
U.S. Department of Commerce                                             Final Report IPE-18046
Office of Inspector General                                                     September 2006

one of the objectives of the Address Canvassing operation. The two items in the
description of GQ Validation/Advance Visit should be reversed since the GQ
administrators are contacted only after the listers have visited the OLQs. The chart
should be noted that listers not only visited OLQs in Austin, but in Cheyenne River
Reservation, as well.

Page 5 - Table 2: Summary of Group Quarters Recommendations: The
recommendation “Track individual forms from enumeration through data capture” was
made by the National Research Council of the National Academy of Sciences in its 2004
report and should be reflected in the chart.

Pages 5-6 - Improve the Group Quarters list and reduce list duplication: In addition
to identifying potential group quarters during the 2004 and 2006 Census Tests, we also
identified complex living arrangements and transient locations. Addresses deemed
potential GQs were designated as OLQs and “validated” rather than verified to ensure
they were GQs during a separate Group Quarters Validation operation.

Page 6 - Count people where they sleep (versus where records are kept): We
attempted to try a new method in the 2006 Census Test. For instance, we conducted
validation and enumeration operations at the actual GQ locations. In 2000, enumeration
was at the GQ level. Validation and Facility Questionnaire was done at the Special Place
level.

Page 7 - “ In addition, when we received...and supplies.” We do not agree with this
statement. Past experience has shown that we must account line-by-line for each address
on the Master Address File. Large apartment complexes were validated as HUs in the
Group Quarters Validation operation.

Page 7 - Enumerating private dormitories as group quarters would be cheaper and
increase Census accuracy: We disagree with this assertion. There is no evidence that
this will be cheaper or increase accuracy. GQ enumeration would still require a personal
visit, which is not cheaper than nonresponse follow-ups (NRFU). We may need to use
administrative records to complete the Individual Census Reports (ICRs). Your
statement “During our April 2006
visit, ...officials were unaware of the high number of private dorms...to their attention” is
incorrect. Managers in the Field Division at Headquarters were indeed aware of the
private dorms in Austin at the time the operation was being conducted.

Page 7 - You state that the nonresponse follow-up operation began in May. It actually
started in April. Therefore, your assumption that students might have already left [the
dorm] and enumerators would have used valuable time and resources to unsuccessfully
attempt six times to contact the resident to complete the questionnaire should be stricken.

Page 8 - Table 3: Private Dorm NRFU Workload: We would like to clarify the
reason why four of the six dorms were 100 percent enumerated during NRFU. The
compressed test schedule did not allow enough time for these addresses to be included in



                                             37
U.S. Department of Commerce                                          Final Report IPE-18046
Office of Inspector General                                                  September 2006

the HU universe to receive a questionnaire prior to NRFU. Because of this, all addresses
were included in NRFU. Some would have responded by mail had we mailed the
questionnaire.

Page 8 - We agree that the Census Bureau should reconsider its definitions and examine
whether private dorms would be better categorized as GQs. We are considering this
change; work is currently underway.

Page 8 - We agree with your statement that we need to consider how co-ops can be
categorized as GQs and redesignate such non-traditional student housing as GQs, but
keep in mind that other unrelated groups live together as well, not just students.

Pages 9-10 - Treatment of large apartment complexes needs to be revisited: The
problem having nearly a dozen listers visit the private dorm rather than one or two of
them was caused by the vacant/delete operation that was done for the first time during the
2006 Census Test concurrently with the NRFU as cases were identified. This was one of
the six test objectives. We have since decided that we will not do the vacant/delete
concurrently with NRFU in 2008 or 2010.

Page 10 - In the matter of quality control and assurance, you state that the Census Bureau
needs to review why it had not identified the problems that OIG encountered. The
purpose for conducting this test was to identify problems encountered during
implementation. Final evaluation results are not available, but Census Bureau staff were
made aware of these problems through debriefings and actual observations at the LCO.

Pages 12-13 - The GQE list was incomplete: We seek clarification of your statement
“The website provides a listing of ‘intermediate care facilities for people with mental
retardation,’ referred to...occupancy information.” Were these addresses included in the
census as a HU? It is important to say they were not missed in the census.

Page 14 - “...four group quarters were identified during the validation and enumeration
operations that were not on the enumeration list. Although these homes would normally
have been added during the Census, it raises concern...not because probing questions
were asked by the field staff.” The Field Division managers were aware of the additions,
but we did not add GQs in 2006 Census Test. We will have a process to add GQs in the
2008 Census Dress Rehearsal. Further the report states, “The only question in the
validation questionnaire related to other group quarters is specific to that location not
other locations.” These other GQs may be on another list assigned to another lister.

Page 14 - “Additional questions could be asked during operations to identify other group
quarter facilities.” We implemented this in Census 2000, and it caused more confusion
and duplication.

Page 14 - Several facility and group quarter names on the GQE list were inaccurate:
The OIG reports that some facilities and group quarters names were incorrectly named on
the Census’ group quarters list most likely because the GQV lister did not speak to the



                                           38
U.S. Department of Commerce                                             Final Report IPE-18046
Office of Inspector General                                                     September 2006

most knowledgeable respondent to correctly answer the questions. We take exception to
this statement. In GQV, we ask the name of the GQ, and we record what the respondent
reports. Additionally, we ask to speak to a knowledgeable respondent to complete the
interview. Your suggestion that the Census Bureau use the Internet and other resources
to improve both the completeness and accuracy of the list is a good one. The Census
Bureau’s National Processing Center conducted a test using the Internet to identify
shelters and soup kitchens. The results of that test are currently being evaluated. On the
other hand, one should not assume that any list created by national, state, or local officials
is any more accurate than respondent-reported information.

Page 14 - Duplication remains problematic: The OIG states that the Census Bureau
has not resolved the problem with duplicates of individuals within group quarters records.
Although we still experience some duplication in the GQs records, we believe the level of
duplication is now much smaller since we have improved upon it after Census 2000. Our
integrated approach of GQs and HUs address files should reduce the number of duplicate
addresses.

Page 18 - Use of the Internet for student populations warrants exploration: The
Census Bureau has studied using the Internet for the 2010 Census and has concluded that
it would not be cost-beneficial or secure in doing so.

Page 19 - Double scanning all ICRs for check-in/out appears unnecessary: We
disagree with this assumption. This is standard procedure for all paper operations. We
check-in/check-out questionnaires. It might appear to be redundant in an office where we
will not be doing all operations, but in over 400 LCOs, anything can happen...more
operations; chances of questionnaires being misplaced, or confusion with other
operations. We desire to have a set procedure applicable to all operations.

Page 21 - Figure 5: Projected Increase in Scanned ICRs from 2000 to 2010: Please
clarify how you arrived at 384,572 as the 2000 Actual Total for GQs. The actual GQs
population number in Census 2000 was around 7.8 million. You further assert that
double scanning is unnecessary and will increase both cost and time that office clerks
must devote to the process that may increase errors during the 2010 Census. We continue
to disagree with this statement. As in Census 2000, this could cause major problems
during data capture. By data capture time, we would be unable to resolve the problems
easily. Our process reduces the error of lost forms and lost coverage in the census.

Page 22 - We disagree with your suggestion to track ICRs through the use of sealed
envelopes and stamps or labels. If this approach is adopted, we cannot address problems
that arise at the
data capture center as in Census 2000. Further, if the envelope was lost, we would not
know if it was lost in the office or if an empty envelope was mailed to us mistakenly.
This would require two different check-out procedures.




                                             39
U.S. Department of Commerce                                           Final Report IPE-18046
Office of Inspector General                                                   September 2006

Page 22 - Repetition of responses to ICR test questions indicates respondent
confusion: We acknowledge there is some confusion. We are currently looking at
revisions to the ICR to incorporate skip patterns as appropriate.

Page 23 - Crew leaders lacked sufficient information to effectively make enumerator
assignments: We disagree with the statement: “But since crew leaders lacked address
information when assigning enumerators, they were unable to identify and assign group
quarters locations in close proximity to an enumerator’s home....” Crew leaders are
actually provided address information for each address to be visited in various formats,
such as maps and assignment directory listings. Increased automation in the 2010 Census
should help facilitate making assignments to enumerators. We do, however, agree that an
enumerator should work in neighborhoods close to home. That is the premise that we use
to promote Census Bureau jobs. We want to hire employees indigenously; that is, hire
those to work in the neighborhoods where they live. Our work assignments are based on
block information, which provides input to closest proximity to an enumerator’s home.
There may be occasions where an enumerator might be asked to work in a neighboring
assignment area, but for the most part, employees are assigned to their own
neighborhoods.

Page 23 - The Group Quarters Listing Sheet (DD-116) format caused problems:
The purpose of the GQs Listing Sheet is not to summarize respondent information but to
keep track of ICRs returned or not returned, and to track whether they are complete or
missing information. Column B is used for recording the Person Number, not to
sequentially tally the number of respondents.

Comments on Recommendations (Pages 25-26)

1. Examine and revise, as necessary, Census’s quality assurance methods to identify,
quantify, and rectify problems. (See page 7.)

Comment: We believe our quality assurance methods are sufficient to identify and
quantify problems.

2. Designate non-traditional student housing (e.g., private dorms, cooperative housing
facilities) as group quarters. (See page 7.)

Comment: Work is underway on this topic.

3. Reduce the inefficiencies associated with listing, potentially validating, and
enumerating large apartment complexes by (a) better preparing group quarters address
canvassing listers with examples of what are and what are not other living quarters, (b)
determining if there are better ways to identify multiple units associated with an address
to reduce the group quarters validation workload, and (c) efficiently assigning non-
response follow-up enumerators to large apartment complexes. (See page 9.)

Comment: We concur with this recommendation.



                                            40
U.S. Department of Commerce                                          Final Report IPE-18046
Office of Inspector General                                                  September 2006


4. Review and revise, as necessary, the methods used to evaluate the accuracy of the
group quarters lists. (See page 12.)

Comment: We will consider part of the recommendation to assure a more complete list
of the small GQs, such as group homes, and to reduce duplication of the lists.

5. Conduct additional research to more effectively find small group homes. Research
could include (a) targeting knowledgeable state officials to obtain group home licensing
lists, (b) conducting more Internet research, and (c) during the group quarters validation
operation, asking small group home administrators about the existence of other facilities.
(See page 12.)

Comment: We concur with your recommendation to conduct more Internet research.
The National Processing Center conducted a test using the Internet to identify shelters
and soup kitchens. The results are currently being evaluated. We do not agree with items
(a) and
 (c); therefore we will not be pursuing these.

6. Reduce address list duplication by (a) strengthening address canvassing and group
quarters validation training and instructions regarding duplicates, (b) ensuring that the
master address file software matching program correctly identifies group quarters
addresses as opposed to inactive housing unit addresses when updated by the U.S. Postal
Service file, and (c) explore modifying how potential duplicate addresses are filtered
from the master address file for the address canvassing and group quarters validation
operation. (See page 14.)

Comment: See response to Recommendation 4 above.

7. Consider using campus resources, such as a student Greek life office, in order to
obtain administrative records for fraternity/sorority students. (See page 17.)

Comment: Using administrative records is already a part of our process. We are
mandated to first attempt to get the GQ resident, and then use administrative records
when that is not possible.

8. Explore using the Internet as a possible response option for the enumeration of
college/university students living in group quarters. (See page 18.)

Comment: We disagree with this recommendation. Reference our 2010 Decennial
Census Program Decision Memorandum No. 14: Rationale for the Decision to Eliminate
the Internet Option from the DRIS Contract, dated July 19, 2006.

9. Evaluate the costs and benefits of the ICR scanning process to determine if the
intended goal to track ICRs could be achieved more efficiently, such as using a sealed
envelope system. (See page 19.)



                                            41
U.S. Department of Commerce                                         Final Report IPE-18046
Office of Inspector General                                                 September 2006


Comment: We disagree with this recommendation. This approach will not allow us to
address problems that arise at the data capture centers as was done in Census 2000, and
could possibly require more than one check-out procedure.

10. Assess the effectiveness of the new/newly worded ICR form questions and consider
limited use of “skip” patterns to avoid respondent confusion that leads to redundant
answers. (See page 22.)

Comment: We concur with this recommendation and are currently working on this topic.

11. Provide crew leaders with adequate information so that they can more efficiently and
effectively assign work to group quarters enumerators. (See page 22.)

Comment: We concur with this recommendation. Our crew leaders already have the
information. We will work on providing them better training on how to use the
information.

12. Redesign the DD-116 Group Quarters Listing Sheet to ensure that it does not
inadvertently confuse enumerators and create rework. (See page 22.)

Comment: We concur with this recommendation.




                                           42
